   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



July 27, 2011

Report Number: A-07-10-02757

Ms. Kim Malsam-Rysdon
Secretary
Department of Social Services
700 Governors Drive
Pierre, SD 57501-2291

Dear Ms. Malsam-Rysdon:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of South Dakota’s Buy-In of Medicare Part B
Premiums for Medicaid Beneficiaries from October 2008 Through September 2009. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-10-02757 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 - Ms. Kim Malsam-Rysdon


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


 REVIEW OF SOUTH DAKOTA’S
 BUY-IN OF MEDICARE PART B
  PREMIUMS FOR MEDICAID
    BENEFICIARIES FROM
  OCTOBER 2008 THROUGH
      SEPTEMBER 2009




                      Daniel R. Levinson
                       Inspector General

                          July 2011
                        A-07-11-02757
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In South Dakota, the Department of Social
Services (State agency) is responsible for administering the Medicaid program.

Section 1843 of the Act authorizes States to enter into agreements with CMS to use Medicaid
funds to pay the Medicare Parts A and B premium payments of eligible individuals, a provision
of the Act that we will refer to as the Medicaid buy-in program. The purpose of the Medicaid
buy-in program is to permit States to provide medical insurance protection to designated
categories of needy individuals who are eligible for Medicaid and meet certain eligibility
requirements. The Medicaid buy-in program has the effect of transferring part of the medical
costs for eligible individuals from the federally- and State-financed Medicaid program to the
federally-financed Medicare program.

Accordingly, Medicare Parts A and B premiums paid by the States on behalf of individuals
enrolled in the Medicaid buy-in program are considered vendor payments and are generally
reimbursable under Medicaid at the Federal Medical Assistance Percentage (FMAP), which is
State-specific and calculated pursuant to section 1905(b) of the Act. For fiscal year (FY) 2009
(October 1, 2008, through September 30, 2009), South Dakota’s FMAP ranged from
68.75 percent to 70.64 percent.

The State agency determines eligibility for Medicaid, based upon household income and
circumstances, and provides Medicaid buy-in assistance to three categories of eligible
beneficiaries through its Medicare Savings Program. The three categories are Qualified
Medicare Beneficiary (QMB), Special Low-Income Medicare Beneficiary (SLMB), and
Qualified Individual (QI beneficiary). Eligibility determinations for these three categories are
based upon varying relationships between household income, on the one hand, and the Federal
poverty level and Supplemental Security Income limit (as determined by the Social Security
Administration) on the other. For eligible beneficiaries classified as either QMBs or SLMBs, the
State agency receives Federal reimbursement at the FMAP rate under the Medicaid buy-in
program. For eligible beneficiaries classified as QI beneficiaries, the State agency receives
100 percent Federal reimbursement under this program pursuant to Section 1933(d) of the Act.

The State agency claimed approximately $18.9 million (approximately $13.5 million Federal
share) for Medicare Part B premiums paid during FY 2009 on behalf of eligible beneficiaries
under the Medicaid buy-in program.




                                                i
OBJECTIVE

Our objective was to determine whether, during FY 2009, the State agency (a) claimed Medicaid
reimbursement for Medicare Part B premiums it paid on behalf of eligible beneficiaries in
accordance with Federal requirements and (b) adequately maintained the eligibility status of QI
beneficiaries.

SUMMARY OF FINDINGS

The State agency did not always comply with Federal requirements when claiming Medicaid
reimbursement for Medicare Part B premiums it paid on behalf of eligible beneficiaries during
FY 2009. The State agency claimed Medicaid reimbursement of $289 (Federal share) for
Medicare Part B monthly premiums from an unallowable retroactive period. These unallowable
payments occurred because the State agency lacked controls to ensure that the retroactive period
for QI beneficiaries occurred no earlier than January 1 of that calendar year.

The State agency overpaid its Medicare Part B Premium liability payment by $10,000 due to a
CMS billing error. The State agency did not identify the error and subsequently claimed
Medicaid reimbursement of $6,875 (Federal share) for Medicare Part B premium assistance that
was in excess of the total Medicare premium liability of eligible beneficiaries in the
November 2008 billing period. The State agency did not identify the billing error because it
lacked controls to ensure that, for each eligible beneficiary, the monthly billing notice matched
the monthly premium liability recorded by the State agency.

In addition, although the State agency had adequate controls to verify the eligibility of Medicaid
buy-in beneficiaries, it did not adequately maintain the supporting fiscal records to document the
eligibility status of those beneficiaries. As a result, we could not determine the total premium
payments paid during FY 2009 on behalf of QI beneficiaries, for whom the State agency
received 100 percent Federal reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

       •   make a financial adjustment of $289 on its next Federal quarterly expenditure report
           to correct the unallowable retroactive payments;

       •   work with CMS to resolve the $10,000 billing error identified in the November 2008
           billing period;

       •   assess its automated systems and procedures to identify and implement improvements
           necessary to maintain complete and accurate eligibility status information for each
           Medicare premium payment transaction; and

       •   strengthen internal controls by developing and implementing policies and procedures
           to:

                                                ii
              o prevent Medicaid reimbursement for retroactive periods earlier than January 1
                of the calendar year in which an individual who has met all QI beneficiary
                eligibility criteria applied for assistance; and

              o review Medicare billing amounts and claim Medicaid reimbursement for only
                Medicare Part B premium assistance payments paid on behalf of eligible
                beneficiaries.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
described corrective actions that it implemented or planned to implement.

The State agency’s comments are included in their entirety as the Appendix.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .................................................................................................... 1
              Medicaid Program ....................................................................................... 1
              Medicaid’s Role in Paying Medicare Part B Premiums ............................. 1
              Administering the Medicaid Buy-In Program ............................................ 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 2
               Objective ..................................................................................................... 2
               Scope ........................................................................................................... 3
               Methodology ............................................................................................... 3

FINDINGS AND RECOMMENDATIONS ................................................................... 4

          MEDICAID REIMBURSEMENT FROM UNALLOWABLE
            RETROACTIVE PERIOD ................................................................................ 4

          MEDICAID REIMBURSEMENT IN EXCESS OF CASH ASSISTANCE
            PAYMENTS ...................................................................................................... 5

          INCOMPLETE AND INACCURATE ELIGIBILITY DATA .............................. 5

          INTERNAL CONTROLS NOT ALWAYS ADEQUATE .................................... 6

          RECOMMENDATIONS ........................................................................................ 6

          STATE AGENCY COMMENTS ........................................................................... 7

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In South Dakota, the Department of Social
Services (State agency) is responsible for administering the Medicaid program.

Medicaid’s Role in Paying Medicare Part B Premiums

Section 1843 of the Act authorizes States to enter into agreements with CMS to use Medicaid
funds to pay the Medicare Parts A and B premium payments of eligible individuals, a provision
of the Act that we will refer to as the Medicaid buy-in program. The purpose of the Medicaid
buy-in program is to permit States to provide medical insurance protection to designated
categories of needy individuals who are eligible for Medicaid and meet certain eligibility
requirements. The Medicaid buy-in program has the effect of transferring part of the medical
costs for eligible individuals from the federally- and State-financed Medicaid program to the
federally-financed Medicare program.

Accordingly, Medicare Parts A and B premiums paid by the States on behalf of individuals
enrolled in the Medicaid buy-in program are considered vendor payments and are generally
reimbursable under Medicaid at the Federal Medical Assistance Percentage (FMAP), which is
State-specific and calculated pursuant to section 1905(b) of the Act. 1 For fiscal year (FY) 2009
(October 1, 2008, through September 30, 2009), South Dakota’s FMAP ranged from
68.75 percent to 70.64 percent.

Administering the Medicaid Buy-In Program

The State agency determines eligibility for Medicaid, based upon household income and
circumstances, and provides Medicaid buy-in assistance to three categories of eligible
beneficiaries through its Medicare Savings Program. Pursuant to Section 1902(a)(10)(E) of the
Act, the eligibility requirements for each category are as follows:

      •    For classification as a Qualified Medicare Beneficiary (QMB), an eligible beneficiary’s
           income does not exceed 100 percent of the Federal poverty level, and his or her resources
           do not exceed twice the Supplemental Security Income (SSI) limit determined by the
           Social Security Administration.

1
    42 U.S.C. § 1396d(b); CMS State Buy-In Manual, Pub. No. 24, chapter 1, section 110.


                                                         1
      •    For classification as a Special Low-Income Medicare Beneficiary (SLMB), an eligible
           beneficiary’s income is above 100 percent, but does not exceed 120 percent, of the
           Federal poverty level, and his or her resources do not exceed twice the SSI limit.

      •    For classification as a Qualified Individual (QI beneficiary), an eligible beneficiary’s
           income is above 120 percent, but less than 135 percent, of the Federal poverty level, his
           or her resources do not exceed twice the SSI limit, and he or she is not otherwise eligible
           for Medicaid.

The State agency is responsible for establishing internal procedures and systems to identify
individuals eligible to be classified as eligible beneficiaries, communicating this information to
CMS, and responding to actions taken by CMS on individual cases. Accordingly, the State
agency is responsible for the accuracy of the eligible beneficiaries’ eligibility status and is
required to routinely update eligibility information in the CMS master file. If the information in
the systems is erroneous, it is the State agency’s responsibility to correct, or have CMS correct,
the errors. 2 Using the CMS master file, CMS prepares a billing notice to the State agency that
provides the monthly Medicare Part B premium due. Along with the billing notice, CMS
provides the State agency with electronic billing files.

Through the use of eligibility codes, individuals in the Medicaid buy-in program are grouped
into various eligibility categories. These eligibility codes identify individuals in the Medicaid
buy-in program whose premiums are eligible to be claimed for Federal reimbursement. 3

For eligible beneficiaries classified as either QMBs or SLMBs, the State agency receives Federal
reimbursement at the FMAP rate under the Medicaid buy-in program. For eligible beneficiaries
classified as QI beneficiaries, the State agency receives 100 percent Federal reimbursement
under this program pursuant to Section 1933(d) of the Act.

The State agency claimed approximately $18.9 million (approximately $13.5 million Federal
share) for Medicare Part B premiums paid during FY 2009 on behalf of eligible beneficiaries
under the Medicaid buy-in program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether, during FY 2009, the State agency (a) claimed Medicaid
reimbursement for Medicare Part B premiums it paid on behalf of eligible beneficiaries in
accordance with Federal requirements and (b) adequately maintained the eligibility status of QI
beneficiaries.



2
 CMS State Buy-In Manual, Pub. No. 24, chapter 2, section 200(F) and chapter 4, section 410; CMS Medicare State
Buy-In Manual, Pub. No. 100-15, chapter 5, sections 500 and 510 (Internet-only manual).
3
    CMS State Buy-In Manual, Pub. No. 24, chapter 4, section 400, and chapter 8, sections 805 and 810.

                                                          2
Scope

Our audit included approximately $18.9 million (approximately $13.5 million Federal share) of
Medicare Part B premiums paid by the State agency on behalf of eligible beneficiaries during
FY 2009.

We limited our consideration of the State agency’s internal controls to obtaining an
understanding of the processes for determining the eligibility of eligible beneficiaries and
claiming Medicaid reimbursement for Medicare Part B premium buy-in assistance payments for
FY 2009.

We performed our fieldwork at the State agency in Pierre, South Dakota, from March through
July 2010.

Methodology

To accomplish our objective, we:

    •   reviewed the Federal and State regulations, policies, and procedures related to the
        Medicaid buy-in program, including the CMS State Medicaid Manual, the CMS State
        Buy-In Manual, and South Dakota’s Buy-In Agreements;

    •   interviewed CMS and State agency personnel to gain an understanding of the procedures
        for determining eligibility and claiming Federal reimbursement;

    •   analyzed beneficiary eligibility data from the State agency’s SS09 system 4 and the State
        agency’s MMIS to verify the completeness and integrity of the data;

    •   analyzed the data from the SS09 system to determine whether retroactive payments
        conformed to Federal requirements;

    •   reconciled the Medicare Part B premium payments data from the SS09 system with the
        billing notices;

    •   selected a simple random sample of 100 items from the total Medicare Part B premium
        payments made during FY 2009;

    •   evaluated the 100 sampled items to determine whether the individuals qualified for the
        Medicaid buy-in program; and

    •   discussed the results of our review with State agency officials on April 5, 2011.



4
 SS09 is one of the State agency’s eligibility systems. SLMB and QI beneficiary applications are entered on the
SS09 system and updated nightly on the State agency’s Medicaid Management Information System (MMIS).

                                                        3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

The State agency did not always comply with Federal requirements when claiming Medicaid
reimbursement for Medicare Part B premiums it paid on behalf of eligible beneficiaries during
FY 2009. The State agency claimed Medicaid reimbursement of $289 (Federal share) for
Medicare Part B monthly premiums from an unallowable retroactive period. These unallowable
payments occurred because the State agency lacked controls to ensure that the retroactive period
for QI beneficiaries occurred no earlier than January 1 of that calendar year.

The State agency overpaid its Medicare Part B Premium liability payment by $10,000 due to a
CMS billing error. The State agency did not identify the error and subsequently claimed
Medicaid reimbursement of $6,875 (Federal share) for Medicare Part B premium assistance that
was in excess of the total Medicare premium liability of eligible beneficiaries in the
November 2008 billing period. The State agency did not identify the billing error because it
lacked controls to ensure that, for each eligible beneficiary, the monthly billing notice matched
the monthly premium liability recorded by the State agency.

In addition, although the State agency had adequate controls to verify the eligibility of Medicaid
buy-in beneficiaries, it did not adequately maintain the supporting fiscal records to document the
eligibility status of those beneficiaries. As a result, we could not determine the total premium
payments paid during FY 2009 on behalf of QI beneficiaries, for whom the State agency
received 100 percent Federal reimbursement.

MEDICAID REIMBURSEMENT FROM UNALLOWABLE
RETROACTIVE PERIOD

Pursuant to CMS’s State Medicaid Manual, chapter 5, retroactive eligibility (of up to 3 months
prior to application) applies if an eligible beneficiary met all QI beneficiary eligibility criteria in
the retroactive period, and if the retroactive period occurred no earlier than January 1 of that
calendar year.

The State agency claimed Medicaid reimbursement of $289 (Federal share) for Medicare Part B
monthly premiums from an unallowable retroactive period. Specifically, the State agency
received Medicaid reimbursement for a $675 Medicare Part B premium payment it had made in
March 2009 that included retroactive payments of $289 for the last 3 months of calendar
year 2008. The eligible beneficiary had applied for the Medicare Part B premium assistance on
January 8, 2009, and the State agency had determined that the individual met the QI beneficiary
eligibility criteria. Because the application date occurred after January 1, 2009, the State agency
should not have claimed Medicaid reimbursement for retroactive payments that extended back



                                                   4
into the previous calendar year. State agency officials said that they were not aware of the
January 1 retroactive period requirement for QI beneficiaries.

MEDICAID REIMBURSEMENT IN EXCESS OF CASH ASSISTANCE
PAYMENTS

Pursuant to Federal regulations at 42 CFR § 431.625(d), States may claim the Federal share for
certain individuals if these recipients are receiving cash assistance under specified Federal
programs.

The State agency overpaid its Medicare Part B Premium liability payment by $10,000 due to a
CMS billing error. The State agency did not identify the error and subsequently claimed
Medicaid reimbursement of $6,875 (Federal share) for Medicare Part B premium assistance that
was in excess of the total Medicare premium liability of eligible beneficiaries in the
November 2008 billing period.

For this billing period, the State agency’s Debit/Credit report from MMIS showed that the State
agency’s Medicare Part B premium liability totaled $1,560,156. However, CMS’s billing notice
showed that the State agency’s Medicare Part B premium liability payment for this billing period
totaled $1,570,156, a $10,000 discrepancy whose cause neither the State agency nor we could
determine. The State agency used Medicaid funds to pay the full Medicare Part B premium
liability payment of $1,570,156, as required, and it claimed Federal reimbursement on the basis
of that payment amount. However, the State agency’s actual premium liability for the month
was $1,560,156. Thus, the State agency overpaid Medicare $10,000 for Part B premium
assistance that was in excess of the total Medicare premium liability of eligible individuals in the
November 2008 billing period. Because the error was not discovered, the State agency
subsequently claimed Medicaid reimbursement of $6,875 (Federal share) for the Medicare
billing error.

INCOMPLETE AND INACCURATE ELIGIBILITY DATA

Pursuant to Federal regulations at 42 CFR § 433.32(a), each State Medicaid agency must
maintain an accounting system and supporting fiscal records to assure that claims for Federal
funds are in accord with applicable Federal requirements.

The State agency did not adequately maintain and track the eligibility status of its eligible
beneficiaries. As a result, we could not determine the total premium payments paid in FY 2009
on behalf of QI beneficiaries, for whom the State agency received 100 percent Federal
reimbursement.

The State agency maintained the eligibility status of its eligible beneficiaries in two automated
systems: the MMIS and the SS09 system. Beneficiary eligibility status sometimes differed
between the two systems and between those systems and beneficiary case files. In our review of
100 sampled transactions, we found 11 instances in which the eligibility status in the automated
systems did not match the eligibility status documented in the beneficiary’s case file. For
example, in one case, the State agency approved a beneficiary for the SLMB eligibility group;

                                                 5
however, MMIS showed this individual as being eligible for the QI beneficiary category. The
State agency would have received additional, unallowable Federal reimbursement (in this
example, $28) as a result of this error. State agency officials were not aware of the incomplete
and conflicting eligibility information in the data systems and were unable to provide the
transactions for the population of FY 2009 QI beneficiaries.

Under the provisions of the Medicaid buy-in program, the State agency receives a higher
percentage of Federal participation for the QI beneficiary category than for the SLMB and QMB
beneficiary categories. Consequently, it is important to have an accounting system and
supporting fiscal records by beneficiary category to assure that claims for Federal funds are in
accord with applicable Federal requirements.

INTERNAL CONTROLS NOT ALWAYS ADEQUATE

Although the State agency had adequate controls to verify the eligibility of Medicaid buy-in
beneficiaries, it lacked controls to ensure that the retroactive period for QI beneficiaries occurred
no earlier than January 1 of that calendar year. The State agency also lacked controls to ensure
that, for each eligible beneficiary, the monthly billing notice matched the monthly premium
liability recorded by the State agency. In addition, the State agency did not adequately maintain
the supporting fiscal records to document the eligibility status of its Medicaid buy-in
beneficiaries.

RECOMMENDATIONS

We recommend that the State agency:

       •   make a financial adjustment of $289 on its next Federal quarterly expenditure report
           to correct the unallowable retroactive payments;

       •   work with CMS to resolve the $10,000 billing error identified in the November 2008
           billing period;

       •   assess its automated systems and procedures to identify and implement improvements
           necessary to maintain complete and accurate eligibility status information for each
           Medicare premium payment transaction; and

       •   strengthen internal controls by developing and implementing policies and procedures
           to:

               o prevent Medicaid reimbursement for retroactive periods earlier than January 1
                 of the calendar year in which an individual who has met all QI beneficiary
                 eligibility criteria applied for assistance; and

               o review Medicare billing amounts and claim Medicaid reimbursement for only
                 Medicare Part B premium assistance payments paid on behalf of eligible
                 beneficiaries.

                                                  6
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
described corrective actions that it implemented or planned to implement.

The State agency’s comments are included in their entirety as the Appendix.




                                               7
APPENDIX
                                                                                                         Page 1 of 2


                         APPENDIX: AUDITEE COMMENTS

                                                  . DEPARTMENT OF SOCIAL SERVICES
                                                                       OFFICE OF THE SECRETARY


 DSSA
Stroog familieS -10";'''I";'18'S FoullllatiOD and Our FllblfI
                                                                             700 GOVERNORS DRIVE
                                                                               PIERRE, SD 57501-2:491
                                                                                PIlONE: 605-773-3165
                                                                                   FAX: 605-773-4855
                                                                                     WEB: dss.sd.goy



July 11,2011

Patrick Cogley
Regional Inspector General for Audit Services
Office of the Inspector General Region VII
601 East 12th Street, Room 0429
Kansas City, Missouri 64106

Dear Mr. Cogley:

Re: Report Number A-07-10-02757

Thank youfor1;he opportunity to respond to 1;he draft report Review ()fSouth Dalwla's BIJ)I-In of
Medicate Part B Premiumsfor Medicaid BenefiCiaries from October2(J08 through September 2009.
For ease of reference we have summarized each finding with the corrective ~tion plan.

Finding
The state agency claimed Medicaid reimbursement of$289 for Medicare Part B premiums from a
retroactive penod.

Corrective Action
We concur with this finding. The Department ofSocial Set:vices (DSS) will make a ~C:ial adjustment
of$289 on its next federal quarterly expenditure report. The Department bal!alsonotif\ed field staff of
this issue and is studying appropriate changes totheelfgibility systems to ensure that the retroactive
period for QJ beneficiaries occurs no earliertban January 1 of the appIicable.calendar year,

Finding
The state agency overpaid its Medicare Part B Premium liability payment by $10,000 due to a eMS
billing error.

Corrective Action

We concur that it appears CMS billed DSS in error for $10,000. DSS has controls in place to reconcile
internal records to CMS billing. DSS will worl<wi1;hCMS to verify that an overpayment was made to
CMS and adjust subsequent quarterly federal reports as directed by CMS.

Finding
The state agency did not adequately maintain·the supporting fiscal records to document the eligibility
status ofall beneficiaries.
                                                                                                     Page 2 of 2




Corrective Action
DSS concurs with this fInding and addressed this issue prior to receipt of the 010 report. Whjle changes
to infonnation systems ~e being implemented, a secondary report was created so that any discrepancies
can be identified and corrected if necessary in the MMIS before the monthly buy-in file ill sentio CMS.

If you have any questions, please feel free to contact myself or Brenda Tidball-Zeltinger.

Sincerely,



Kim Malsam-Rysdon
Secretary




Cc: 	   Canie Johnson, Director of Economic Assistance
        Larry iversen, Director of Medica1 Services
        BrendaTidball-Zeltinger, Chief Financial Officer
